+DOEF 1325.8
(08-93)
United States Government                                                          Department of Energy,


memorandum
       DATE:     March 31, 2005                                       Audit Report No.: OAS-L-05-04
   REPLY TO
   ATN OF:       IG-30 (A04NE044)

   SUBJECT:     Review of the Department's Controls over Services Acquired through Memoranda of
                Agreement with Other Federal Agencies and Blanket Purchase Agreements
        TO:     Chief Financial Officer, Office of Management, Budget and Evaluation

                INTRODUCTION AND OBJECTIVE

                To meet the requirements of the Energy Employees OccupationalIllness Compensation
                ProgramAct, the Department of Energy's Office of Headquarters Procurement Services
                (Procurement) entered into a Memorandum of Agreement (MOA) with the Navy in
                November 2001 to develop a case processing system. This MOA allowed the
               Department to acquire systems development services through the Navy's contract with
               SEA/Apogen using a General Services Administration (GSA) Blanket Purchase
               Agreement (BPA). Under this arrangement, an official at GSA served as the Contracting
               Officer and Navy, as the servicing agency, prepared the task orders. As a consequence,
               Departmental contracting officials lacked authority to ensure that tasks were consistent
               with the original contract. After the initial tasks for system development were completed,
               SEA/Apogen was tasked to perform additional work that was beyond the scope of the
               MOA. After Congressional inquiries, Procurement officials reviewed the additional tasks
               and determined that much of the requested work was outside the scope of the
               Department's MOA with the Navy.

               The Government Accountability Office has reported that management of interagency
               contracts is a high risk activity because accountability is not always clearly established.
               Based on an inquiry by the GSA Office of Inspector General, Senator Charles E. Grassley
               also expressed concern regarding the Department's contractual relationship with
               SEA/Apogen. Because of these concerns, we initiated this review to determine whether
               the Department had other contractual arrangements similar to the SEA/Apogen tasking.
               In addition, we assessed the Department's controls for ensuring that services acquired
               through such instruments were consistent with the underlying contracts and existing
               Federal regulations such as the Economy Act. We reviewed 30 MOA/Interagency
               Agreements with other Federal agencies and 24 BPAs that were active during Fiscal
               Years 2003 and 2004.

               CONCLUSIONS AND OBSERVATIONS

               We determined that the arrangement between the Department and SEA/Apogen was not
               typical of the Department's MOAs with other Federal agencies. For each of the MOAs
                                              -2-

  reviewed, there were either no amendments made to the original statements of work or,
  iwhen amendments were made, they did not call for work to migrate beyond that specified
S.ini the original statement of work. Our examination of the agreements revealed that:

     * DOE contracting officers approved the original statement of work for each of the
        30 agreements;
     * While 29 of the agreements were modified over their lifecycle, each of the
       changes was approved by a DOE contracting officer. Of those 29 modifications,
       27 related to changes in funding or period of performance and 2 involved actual
       modifications to the statement of work;
     * Agreed upon tasks were performed by the servicing agency in 21 of the
       agreements, while 9 tasks were satisfied by utilizing a contractor obtained by the
       servicing agency; and,
     * For one of the 30 agreements, program officials inappropriately authorized tasks.
       Even though the taskings were within the scope of the original agreement,
       program officials authorized the work without consulting a DOE contracting
       officer. This inappropriate tasking was brought to the attention of Headquarters
       procurement officials for resolution.

We found nothing that would indicate that the 24 BPAs we reviewed were inconsistent
with the underlying agreement. None of the modifications to these agreements that we
examined called for work that was outside the scope of the original agreement. Even
though listed as being active in the Department's records, we noted that 19 of the 24
agreements were for the purpose of obtaining supplies and services and had little or no
activity. The remaining 5 of the 24 BPAs were used only to acquire services and all of
the original statements of work or subsequent modifications were within scope and
approved by DOE contracting officers.

We also noted that the Department had contiols in place to ensure that Economy Act
requirements were met and had recently taken action to strengthen oversight of its
interagency agreements. In a January 19, 2005, letter to Senator Grassley regarding the
SEA/Apogen issue, the Department outlined remedial action that it stated had been taken
to ensure that non-Departmental acquisitions are properly handled in the future. The
Department referred to Acquisition Letter No. 2005-05 issued on December 8, 2004,
which required Contracting Officers to monitor tasks provided to the servicing agency to
ensure that they are consistent with the scope of the underlying contract. The Acquisition
Letter also stated that there should be a review of deliverables and invoices by the
Contracting Officer or their designated representative to ensure that services remain
within the scope of work.

As noted in the review conducted by the GSA's Office of Inspector General and as
confirmed by our work, the tasks assigned to SEA/Apogen clearly migrated beyond the
scope of work specified in the original agreement. This incident is especially troubling
given the continuing emphasis on competitive procurements. Nonetheless, we concluded
                                              -3-.

   that the control weaknesses that led to the problems associated with the SEA/Apogen
  c.on t ract were atypical, and had not significantly impacted the majority ofinteragency
. agreements administered by the Department. The action taken by the Department to
  strengthen the management of interagency contracts, if properly and completely
  implemented, should also help prevent or detect problems with such actions in the future.
  We appreciate the cooperation of your staff throughout the audit.




                                            William S. Maharay
                                            Deputy Inspector General
                                             for Audit Services
                                            Office of Inspector General

 Attachment

 cc:    Audit Liaison, Office of Management, Budget and Evaluation, ME-1.1
        Audit Liaison, Office of Environmental Management, EM-33
        Audit Liaison, Office of Energy Efficiency and Renewable Energy, EE-30
        Audit Liaison, Office of Fossil Energy, FE-3
        Audit Liaison, Office of Environment, Safety and Health, EH-71
        Audit Liaison, Office of Science, SC-67
        Director, Policy and Internal Controls Management, NA-66
        Team Leader, Audit Liaison, ME-100
                                                                        Attachment

  OBJECTIVE

  To determine whether the Department of Energy adequately controls the services it
 .receives under Memoranda of Agreement with other Federal agencies and Blanket
"Purchase Agreements.

 SCOPE AND METHODOLOGY

 We conducted our review at Department Headquarters from August 2004 to February
 2005. The universe of our test work included all Memoranda of Agreement (MOA) /
 Interagency Agreements with other Federal agencies and all Blanket Purchase
 Agreements (BPA) active during Fiscal Years 2003 and 2004 and administered by the
 Office of Headquarters Procurement Services. To accomplish our objective, we:

    * Reviewed applicable laws, regulations and Departmental polices /guidelines;

    * Conducted a review of the MOA/Interagency Agreement with the Navy and met
      with Department officials in the Offices of Headquarters Procurement Services and
      Environment, Safety and Health to discuss the issues associated with that
      agreement;

   * Obtained listings from the Procurement and Assistance Data System of all active
     BPAs and MOA/Interagency Agreements in Fiscal Years.2003 and 2004;

   * Judgmentally selected and reviewed a sample of 30 MOA/Interagency Agreements
     for services that were active during Fiscal Years 2003 and 2004 and valued at over
     $2 million;

   * Reviewed all 24 BPAs for services that were active during Fiscal Years 2003 and
     2004;

   * Obtained and reviewed supporting documents for MOA/IAs and BPAs from the
     Department's Office of Headquarters Procurement Services; and,

   * Interviewed selected individuals in the Accounting Branch, Finance Division, and
     Oversight and Evaluation Division, Office of Management, Budget and Evaluation,
     with regard to costs incurred for specific agreements.

The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective. Because
our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at.the time of our audit. We relied on computer-
processed data to accomplish our audit objective. We performed limited test work of data
reliability during our audit and determined that we could rely on the computer-processed
data. We also conducted a limited review the Department's implementation of the
Government Performanceand Results Act of 1993 and found that there were no
performance measures for interagency agreements.
